NO. ______________________
IN THE
SUPREME COURT OF THE UNITED STATES

CELSO YANEZ, Petitioner,
VS.
CALIFORNIA, Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE CALIFORNIA COURT OF APPEAL
SIXTH APPELLATE DISTRICT

PROOF OF SERVICE

ALEXIS HALLER
Counsel of Record
LAW OFFICE OF ALEXIS HALLER
7960B Soquel Drive, #130
Aptos, California 95003
(831) 685-4730
ahaller@ahlawoffice.com
Counsel of Record for Petitioner,
CELSO YANEZ

PROOF OF SERVICE

I, Alexis Haller, do swear that on this date, October 13, 2020, as
required by Supreme Court Rule 29, I have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PA UPERIS and PETITION FOR A
WRIT OF CERTIORARI (as well as the instant Proof of Service) on each
party to the above proceeding or that party's counsel, and on every other
person required to be se~ed, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and
with first-class postage prepaid.
The names and addresses of those served are as follows:
Attorney General's Office
455 Golden Gate Avenue, Suite 11000
San Francisco, California 94102-7004
[Attorney for Respondent]
DOCKETING6DCASFAWT@DOJ.CA.GOV
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 13, 2020.

ALEXIS HALLER
Attorney for Petitioner,
Celso Yanez

1

